             Audit Report




The Social Security Administration’s
  Field Office Remittance Process




        A-08-13-13034 | May 2014
MEMORANDUM


Date:      May 2, 2014                                                        Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Field Office Remittance Process (A-08-13-13034)

           The attached final report presents the results of our audit. Our objective was to assess the Social
           Security Administration’s field office remittance process.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Field Office Remittance
Process
A-08-13-13034
May 2014                                                                   Office of Audit Report Summary

Objective                                  Our Findings

To assess the Social Security              FOs did not always accurately process remittances or timely clear
Administration’s (SSA) field office        alerts. For example, of the approximately 458,000 remittances FOs
(FO) remittance process.                   processed from August 1, 2011 through July 31, 2012, over
                                           44,000 (10 percent) contained discrepancies that generated initial
Background                                 alerts for corrective actions. Of these initial alerts, DMS generated
                                           over 11,000 follow-up alerts (day 42) and over 5,700 final alerts
SSA FOs receive checks, money              (day 60) to FOs.
orders, cash, and credit card payments
for Medicare premium payments and          Our review of SSA’s Debt Management System and NY Debt
Title II/XVI overpayment refunds.          Management Release 2 application found SSA did not generally
They also collect fees for services.       track and summarize the causes of remittance discrepancies or
SSA defines these payments as              reasons FO personnel did not clear alerts within 60 days.
remittances.                               According to MATPSC, some FOs sent remittances to the wrong
                                           entity or cleared unverified alerts before MATPSC received the
FOs input remittance information in        remittances. In addition, one FO told us it waited 60 days to clear
SSA’s Debt Management System               any alerts because it wanted to ensure MATPSC had sufficient time
(DMS). DMS generates forwarding            to receive and process its remittances before determining whether
instruction sheets for remittances, such   there were issues. We believe SSA could better manage its
as fees for services, which SSA’s          remittance process by tracking and summarizing the causes of
Office of Finance processes for            remittance discrepancies and reasons FOs did not clear alerts within
deposit. DMS generates a scannable         60 days. SSA could use such information to help reduce
payment coupon for remittances, such       duplication of effort and best use the Agency’s limited resources.
as overpayment refunds, that FOs mail
to SSA’s debt management section at        SSA is developing an automated fee collection system to streamline
the Mid-Atlantic Program Service           its non-program remittance process. Although SSA will initially
Center (MATPSC) for deposit.               use the system to collect non-program fees, it also plans to collect
                                           program fees later. SSA plans to implement this system for
For discrepant remittances, MATPSC         non-program remittances in two phases with full implementation to
may notify the originating FO for          begin in the last quarter of 2014.
corrective actions or correct the
discrepancies themselves. If MATPSC        Our Recommendation
does not receive and verify remittances
within 20 days of FO input, DMS            As SSA continues developing a streamlined remittance process, we
generates an initial alert for the         recommend it track and summarize the causes of discrepant
originating FO on day 21. DMS              remittances and reasons FOs did not clear alerts within 60 days.
generates a follow-up alert on day
42 and a final alert on day 60 for those   SSA agreed with our recommendation.
initial alerts not cleared by FOs.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     FOs Did Not Always Accurately Process Remittances or Timely Clear Alerts ........................3
     SSA Did Not Track or Summarize Key Information on Discrepant Remittances ....................4
     SSA Is Developing a Streamlined Remittance Process .............................................................5
Conclusions ......................................................................................................................................6
Recommendation .............................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendices .................................................................................................................................. A-1
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




SSA’s Field Office Remittance Process (A-08-13-13034)
ABBREVIATIONS
CSI                  Centers for Security and Integrity

DMS                  Debt Management System

eFOR                 Electronic Field Office Remittance Program

FO                   Field Office

MATPSC               Mid-Atlantic Program Service Center

OIG                  Office of the Inspector General

RFOR                 Field Office Remittance Input

SERS                 Social Security Electronic Remittance System

SSA                  Social Security Administration




SSA’s Field Office Remittance Process (A-08-13-13034)
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) field office (FO)
remittance process.

BACKGROUND
SSA has approximately 1,300 FOs in the United States and its territories. FOs receive checks,
money orders, cash, and credit card payments for Medicare premium payments and Title II/XVI
overpayment refunds. They also collect fees for services. 1 SSA defines payments for premiums,
program debts, or fees as remittances. 2

FOs input remittance information 3 in SSA’s Debt Management System (DMS) using its Field
Office Remittance Input (RFOR) screen or the Electronic Field Office Remittance Program
(eFOR), a Web-based application. 4 Once FOs enter the data, DMS generates a customer receipt
and either a forwarding instruction sheet or a scannable payment coupon. For example, DMS
generates forwarding instruction sheets for such remittances as fees for services, which SSA’s
Office of Finance processes and deposits. 5 DMS generates scannable coupons for those
remittances that FOs send to SSA’s Debt Management Section at the Mid-Atlantic Program
Service Center (MATPSC) 6 for processing and deposit, such as overpayment refunds. 7

Because MATPSC’s objective is to ensure timely deposit, it attempts to resolve discrepant
remittances when possible. For discrepancies it cannot resolve, MATPSC may notify the
originating FO for corrective actions. 8 If MATPSC does not receive and verify remittances
within 20 days of FO input, DMS generates an initial alert for the originating FO on day 21.


1
 SSA charges fees for non-program-related services, such as providing non-program related benefit information or
verification.
2
 SSA, POMS, GN 02403.001.A (January 4, 2013). However, SSA’s policy states that unendorsed returned benefit
checks are not remittances.
3
  Remittance information input by FOs may include a numberholder’s Social Security number and name; remittance
type; remittance amount; Trust Fund associated with the remittance; and remitter’s name, address, and telephone
number.
4
  The eFOR application contains the same fields as the RFOR screen in DMS. The information FOs input in eFOR
transmits to the RFOR screen for processing. The eFOR program propagates data from various SSA systems of
records when information is available for a numberholder.
5
  SSA, POMS, GN 02403.012 (April 2, 2014) and GN 02403.030 (January 19, 2012). FOs also forward remittances
to entities, such as SSA’s Office of Earnings Operations and the Centers for Medicare and Medicaid Services.
6
 For reporting purposes, we use the term “MATPSC” to refer to SSA’s Debt Management Section in its National
Remittance Processing Center. MATPSC also processes remittances it receives directly from the public.
7
    SSA, POMS, GN 02403.001.A (January 4, 2013).
8
  SSA, POMS, GN 02403.065.B (November 17, 2008). Such discrepancies may include a missing refund or FOs
recorded a different amount than the remittance.



SSA’s Field Office Remittance Process (A-08-13-13034)                                                              1
DMS generates a follow-up alert on day 42 and a final alert on day 60 if the FO does not clear its
initial alert. 9 Although SSA policy does not provide a specific timeline for FOs to clear alerts,
SSA’s system automatically notifies the appropriate SSA regional Centers for Security and
Integrity (CSI) when FOs under its purview have alerts over 60 days old. While FOs are
responsible for clearing remittance alerts, CSIs help investigate and assist FOs in resolving alerts
over 60-days-old. Furthermore, SSA places deposited remittances it cannot associate with a
correct account or Trust Fund in a suspense file for further review and resolution. According to
MATPSC, they work with SSA’s accounting office to resolve remittances in suspense.

To accomplish our objective, we obtained a receipt file of remittances FOs processed through
DMS from August 1, 2011 through July 31, 2012. During this time, FOs received over
458,000 remittances totaling over $391million. 10 From this file, we identified remittances where
DMS generated an alert. We visited the FO with the greatest number of alerts and the FO with
the highest number of remittance receipts to gain a better understanding of the remittance process
at FOs. We also visited MATPSC to discuss its role and experience with the FO remittance
process. Finally, to determine the management information SSA collected for discrepant
remittances, 11 we reviewed SSA’s DMS and NY Debt Management Release 2 application. 12
Appendix A provides additional information on our scope and methodology.

RESULTS OF REVIEW
FOs did not always accurately process remittances or timely clear alerts. For example, of the
approximately 458,000 remittances FOs processed from August 1, 2011 through July 31, 2012,
over 44,000 (10 percent) contained discrepancies that generated initial alerts for corrective
actions. Of these initial alerts, DMS generated over 11,000 follow-up alerts (day 42) and over
5,700 final alerts (day 60) to FOs.

Our review of SSA’s DMS and NY Debt Management Release 2 application found SSA did not
generally track and summarize the causes of remittance discrepancies or reasons FO personnel
did not clear alerts within 60 days. According to MATPSC, some FOs sent remittances to the
wrong entity or cleared unverified alerts before MATPSC received the remittances. In addition,
one FO told us it waited 60 days to clear any alerts because it wanted to ensure MATPSC had
sufficient time to receive and process its remittances before determining whether there were
issues. We believe SSA could better manage its remittance process by tracking and summarizing
the causes of remittance discrepancies and reasons FOs did not clear alerts within 60 days. SSA



9
    SSA, POMS, GN 02403.050.C (July 23, 2012).
10
  The FO remittance receipt file also contained over 270,000 records of unendorsed benefit checks, which we
excluded from our analysis.
11
  We define discrepant remittances as any remittance MATPSC corrected before processing or those that DMS
generated an alert.
12
  FOs use SSA’s NY Debt Management Release 2 application as a workload control and for management
information on their Title 2 debt management workload.



SSA’s Field Office Remittance Process (A-08-13-13034)                                                         2
could use such information to help reduce duplication of effort and best use the Agency’s limited
resources.

SSA is developing an automated fee collection system to streamline its non-program remittance
process. SSA plans to implement the system for non-program remittances in two phases, with
full national rollout to begin in the last quarter of 2014. Although SSA will initially use this
system to collect only non-program fees, it plans to expand the functionality in the future to
collect program fees.

FOs Did Not Always Accurately Process Remittances or Timely
Clear Alerts
FOs did not always accurately process remittances or timely clear alerts. For example, of the
approximately 458,000 remittances FOs processed from August 1, 2011 through July 31, 2012,
over 44,000 (10 percent) contained discrepancies that generated initial alerts for corrective
actions. Of these initial alerts, DMS generated over 11,000 follow-up alerts (day 42) and over
5,700 final alerts (day 60) to FOs. Table 1 shows the approximate dollar amount for remittances
on the alert list.

                                     Table 1: FO Remittances with Alerts
                                     August 1, 2011 Through July 31, 2012

                                                 Number of Alerts            Dollar Amount
                     Type of Alert
                                                   Generated                (Approximation)
                          Initial                          44,220              $45.5 million
                         (Day 21)
                       Follow-up                           11,065              $12.1 million
                         (Day 42)
                           Final                            5,715                $6.5 million
                         (Day 60)
                Source: OIG Analysis of FO Remittance Receipts


Over 90 percent of the remittances with alerts during our audit period were related to program
payments. Approximately 59 percent was for overpayment refunds, and 33 percent was
conserved fund payments. 13




13
  SSA, POMS, SI 01120.022.A (February 9, 2006). A representative payee who has conserved or invested funds
for a beneficiary but is no longer serving as payee must return the funds to SSA for reissuance to either the successor
payee or beneficiary.



SSA’s Field Office Remittance Process (A-08-13-13034)                                                                3
As shown in Figure 1, FOs resolved 75 percent of the initial alerts before DMS generated a
follow-up alert and cleared another 12 percent before the 60-day final alert was generated.
Although FOs resolved 87 percent of these alerts within 60 days, 13 percent remained on the
alert list for over 60 days. 14 Because of SSA systems limitations, we could not determine when
FOs cleared these alerts or how many dropped out of the system after 2 years. However, as of
February 2014, we had identified 23 remittances that remained on the alert list from 578 to
728 days.

                                    Figure 1: Resolution of Initial Alerts from
                                      August 1, 2011 Through July 31, 2012



                      75%
                                                                              By Follow-up Alert Date
                                                                              (Day 42)
                                                                              By Final Alert Date
                                                                              (Day 60)
                                                                   12%        Over 60 Days

                                                             13%


            Source: OIG Analysis of FO Remittance Receipts


We also discussed FO remittance issues with other entities that processed and deposited SSA’s
remittances. For example, the Department of the Treasury told us it received 458 erroneous
remittances, totaling about $459,000, from January 2012 through August 2013 and mailed them
to MATPSC. In addition, SSA’s Office of Finance 15 told us there were ongoing remittance
issues, such as incomplete documents. Furthermore, the Office of Payment and Recovery Policy
issued several administrative messages to FOs regarding these issues. 16 Finally, SSA’s Office of
Earnings Operations told us that FO remittances were often incomplete, and it worked closely
with FOs to improve the process.

SSA Did Not Track or Summarize Key Information on Discrepant
Remittances
Our review of SSA’s DMS and NY Debt Management Release 2 application found SSA did not
generally track and summarize the causes of remittance discrepancies or reasons FO personnel



14
  SSA’s statistics for the 12 months following our audit period showed that the percentage of remittances over
60 days increased to about 28 percent and decreased to about 12 percent as of September 5, 2013.
15
     SSA’s Office of Finance processes administrative fees.
16
  Administrative Message, Temporary Suspension of Office of Finance Returning Verified SSA-414-U3 to Field
Offices (November 6, 2013) and Reminder – Fee Remittance Processing (November 17, 2012).



SSA’s Field Office Remittance Process (A-08-13-13034)                                                            4
did not clear alerts within 60 days. However, MATPSC cited several reasons why FOs did not
always accurately process remittances or timely clear alerts. For example, MATPSC told us that
some FOs sent remittances to the wrong entity when personnel entered incorrect Trust Fund
codes. 17 MATPSC also stated that SSA could reduce Trust Fund coding discrepancies by
requiring that FOs use eFOR because it streamlines the remittance process by propagating
account holder information from various SSA systems of records. However, SSA instructs FO
personnel to use DMS’ RFOR screen, and SSA’s Field Office Remittance Troubleshooting
Guide instructs personnel to use either DMS or eFOR. 18 Given conflicting guidance and the
potential to reduce discrepancies, we encourage SSA to clarify when FOs should use eFOR or
DMS to process remittances.

MATPSC further stated that FOs sometimes cleared their unverified alerts before MATPSC
received the remittances. When this occurred, the automated coupons DMS generated were no
longer valid. As a result, MATPSC reentered the remittance information to create a valid
coupon, which is important because it facilitates posting of remittances to appropriate accounts.
In addition, one FO we visited told us it waited 60 days to clear its alerts. According to the FO,
it wanted to ensure that MATPSC had sufficient time to receive and process its remittances
before determining whether there were any issues. Furthermore, SSA did not collect information
on the complaints it received from remitters whose accounts it had not properly credited or FOs
that input the discrepant remittances.

We believe the lack of centralized management information may hinder SSA’s ability to manage
its remittance workload effectively and evaluate FO performance. Although SSA’s NY Debt
Management Release 2 application provides the number and age of remittances, SSA does not
track and summarize the causes of remittance discrepancies or reasons FO personnel did not
clear alerts within 60 days. SSA could use such information to help reduce duplication of effort
and best use the Agency’s limited resources.

SSA Is Developing a Streamlined Remittance Process
SSA is developing an automated fee collection system to streamline its non-program remittance
process. The Social Security Electronic Remittance System (SERS) will assist FO staff and
managers in processing and collecting fees in a secure environment. Specifically, SERS will
manage orders, create transactional documents, process payments, provide management
information reports, and send accounting events to SSA’s accounting system. FO personnel will
process requests, and SERS will accept payment methods, such as credit cards and checks. As a
result, FO personnel will no longer compile and send paper checks and credit card forms for
non-program collections to SSA’s Office of Finance.




17
     Trust Fund codes allow SSA to deposit remittances to the proper accounts.
18
     SSA, Field Office Remittance Troubleshooting Guide, January 2011.



SSA’s Field Office Remittance Process (A-08-13-13034)                                            5
SSA plans to implement SERS for non-program remittances in two phases with full national
rollout to begin in the last quarter of 2014. Although SSA will initially use SERS to collect only
non-program fees, it plans to expand the functionality in the future to collect program fees.

CONCLUSIONS
Our review of remittance data determined that FOs processed thousands of discrepant
remittances that generated alerts for corrective actions. Although FOs resolved 87 percent of
these alerts within 60 days, 13 percent remained on the alert listing for over 60 days. Our review
of SSA’s DMS and NY Debt Management Release 2 application found SSA did not generally
track and summarize the causes of remittance discrepancies or reasons FO personnel did not
clear alerts within 60 days.

We commend SSA on its initiative to streamline the remittance process. However, when SSA
personnel process discrepant remittances or do not clear alerts timely, the Agency often
duplicates its efforts. Given the importance of effectively using the Agency’s limited resources,
we believe SSA would benefit by taking additional steps to enhance its remittance process.

RECOMMENDATION
As SSA continues developing a streamlined remittance process, we recommend it track and
summarize the causes of discrepant remittances and reasons FOs did not clear alerts within
60 days.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in Appendix B.




SSA’s Field Office Remittance Process (A-08-13-13034)                                               6
                                       APPENDICES




SSA’s Field Office Remittance Process (A-08-13-13034)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed Social Security Administration (SSA) policies and procedures.

   Obtained a file of 458,036 remittances generated by SSA’s field offices (FO) from
    August 1, 2011 through July 31, 2012. 1 From this file, we identified remittances with alerts. 2

   Queried SSA’s Debt Management System and NY Debt Management Release 2 application 3
    to determine whether SSA tracked and summarized remittance information.

   Visited SSA’s National Remittance Processing Center (MATPSC) in Philadelphia,
    Pennsylvania. We also visited FOs in Indianapolis, Indiana, and Nashville, Tennessee, to
    observe and discuss FOs’ role in the remittance process and identify FO-related issues.

   Interviewed Centers for Security and Integrity staff at the Birmingham Social Security Center
    in Birmingham, Alabama, to discuss remittance issues they observed.

The SSA entity reviewed was the Office of Public Services and Operations Support under the
Office of the Deputy Commissioner of Operations. Our review of internal controls was limited
to obtaining an understanding of the remittances on the receipt file that originated from SSA’s
FOs.

We conducted our audit from November 2012 through February 2014 in Birmingham, Alabama.
We determined the remittance data were sufficiently reliable for purposes of our review and
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusion based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our findings
and conclusion based on our audit objectives.




1
  The remittance FO receipt file also contained over 270,000 records of unendorsed benefit checks. We did not
include these items in our count because SSA’s policy states that unendorsed returned benefit checks are not
remittances. SSA, POMS, GN 02403.001.A (January 4, 2013).
2
  SSA FOs input remittance information in SSA’s Debt Management System, which generates alerts when
remittances are not verified and processed within 20 days of FO input.
3
  FOs use SSA’s NY Debt Management Release 2 application as a workload control and for management
information on their Title 2 debt management workload.



SSA’s Field Office Remittance Process (A-08-13-13034)                                                           A-1
           Appendix B – AGENCY COMMENTS




                                              SOCIAL SECURITY


MEMORANDUM


Date:      April 10, 2014                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration's Field Office
           Remittance Process” (A-08-13-13034) -- INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSA’s Field Office Remittance Process (A-08-13-13034)                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S FIELD OFFICE REMITTANCE
PROCESS” (A-08-13-13031)


Recommendation

As SSA continues developing a streamlined remittance process, we recommend it track and
summarize the causes of discrepant remittances and reasons FOs did not clear alerts within
60 days.

Response

We agree. We will review the current unverified remittance alert process and explore options to
centralize unverified remittance management information. We plan to complete this review by
the end of fiscal year 2014.




SSA’s Field Office Remittance Process (A-08-13-13034)                                        B-2
Appendix C – MAJOR CONTRIBUTORS
Theresa Roberts, Director, Atlanta Audit Division

Jeff Pounds, Audit Manager

Kozette Todd, Senior Auditor

Janet Matlock, Senior Auditor

Hollie Calhoun, Senior Auditor




SSA’s Field Office Remittance Process (A-08-13-13034)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
